<html>
<title> - H. RES. 1363, GRANTING THE AUTHORITY PROVIDED UNDER CLAUSE 4(C)(3) OF RULE X OF THE RULES OF THE HOUSE OF REPRESENTATIVES TO THE COMMITTEE ON EDUCATION AND LABOR FOR PURPOSES OF ITS INVESTIGATION INTO UNDERGROUND COAL MINING SAFETY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
 H. RES. 1363, GRANTING THE AUTHORITY PROVIDED UNDER CLAUSE 4(C)(3) OF 
RULE X OF THE RULES OF THE HOUSE OF REPRESENTATIVES TO THE COMMITTEE ON 
EDUCATION AND LABOR FOR PURPOSES OF ITS INVESTIGATION INTO UNDERGROUND 
                           COAL MINING SAFETY

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON RULES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, MAY 19, 2010


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




             Printed for the use of the Committee on Rules


                  U.S. GOVERNMENT PRINTING OFFICE
56-972                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                           COMMITTEE ON RULES

               LOUISE McINTOSH SLAUGHTER, New York, Chair
JAMES P. McGOVERN, Massachusetts,    DAVID DREIER, California, Ranking 
    Vice Chair                           Member
ALCEE L. HASTINGS, Florida           LINCOLN DIAZ-BALART, Florida
DORIS O. MATSUI, California          PETE SESSIONS, Texas
DENNIS A. CARDOZA, California        VIRGINIA FOXX, North Carolina
MICHAEL A. ARCURI, New York
ED PERLMUTTER, Colorado
CHELLIE PINGREE, Maine
JARED POLIS, Colorado
                    Muftiah McCartin, Staff Director
            Hugh Nathanial Halpern, Minority Staff Director
                                 ------                                

             Subcommittee on Legislative and Budget Process

                  ALCEE L. HASTINGS, Florida, Chairman
DENNIS A. CARDOZA, California        LINCOLN DIAZ-BALART, Florida, 
CHELLIE PINGREE, Maine                   Ranking Member
JARED POLIS, Colorado                DAVID DREIER, California
LOUISE McINTOSH SLAUGHTER, 
    New York
                      Lale Mamaux, Staff Director
                Cesar Gonzalez, Minority Staff Director
                                 ------                                

          Subcommittee on Rules and Organization of the House

               JAMES P. McGOVERN, Massachusetts, Chairman
DORIS O. MATSUI, California          PETE SESSIONS, Texas, Ranking 
MICHAEL A. ARCURI, New York              Member
ED PERLMUTTER, Colorado              VIRGINIA FOXX, North Carolina
LOUISE McINTOSH SLAUGHTER, 
    New York
                     Keith L. Stern, Staff Director
                Keagan Lenihan, Minority Staff Director















                            C O N T E N T S

                              ----------                              

                              May 19, 2010

                                                                   Page
Opening Statements:
    Hon. Louise M. Slaughter, a Representative in Congress from 
      the State of New York and Chair of the Committee on Rules..     1
    Hon. David Dreier, a Representative in Congress from the 
      State of California and Ranking Member of the Committee on 
      Rules......................................................     2
Witness Testimony:
    Hon. George Miller, a Representative in Congress from the 
      State of California and Chair of the Committee on Education 
      and Labor..................................................     3
      Prepared Statement.........................................     4
    Prepared Statement of the Hon. John Kline, a Representative 
      in Congress from the State of Minnesota and Ranking Member 
      of the Committee on Education and Labor....................     5


ORIGINAL JURISDICTION HEARING AND MARKUP OF H. RES. 1363, GRANTING THE 
 AUTHORITY PROVIDED UNDER CLAUSE 4(C)(3) OF RULE X OF THE RULES OF THE 
 HOUSE OF REPRESENTATIVES TO THE COMMITTEE ON EDUCATION AND LABOR FOR 
   PURPOSES OF ITS INVESTIGATION INTO UNDERGROUND COAL MINING SAFETY

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                          House of Representatives,
                                        Committee on Rules,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:02 p.m. in Room 
H-313, The Capitol, Hon. Louise M. Slaughter [chairwoman of the 
committee] presiding.
    Present: Representatives Slaughter, McGovern, Hastings, 
Matsui, Arcuri, Perlmutter, Polis, Dreier, Diaz-Balart, 
Sessions and Foxx.

                       OPENING STATEMENTS

    The Chairwoman. The Rules Committee will please come to 
order.
    We are here today to conduct an original jurisdiction 
hearing, and our witnesses--I will start with the Honorable 
George Miller, chair of Ed and Labor; and I believe Mr. Kline 
is coming; is he not?
    Mr. Dreier. I don't think he is going to be here.
    The Chairwoman. He will not be here.
    Mr. Miller, we will be happy to hear from you.

     OPENING STATEMENT OF THE HON. LOUISE M. SLAUGHTER, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK AND CHAIR 
                   OF THE COMMITTEE ON RULES

    The Chairwoman. First, if you will excuse me, Mr. Miller, I 
want to make a very brief opening statement. I feel very 
seriously about this issue, having been born in eastern 
Kentucky.
    In April, the whole Nation watched transfixed as an 
explosion rocked the Upper Big Branch Mine in West Virginia, 
taking the lives of 29 miners.
    This accident, like so many before it, raised troubling 
questions about how the mine was run and whether precautions 
could have been implemented to prevent accidents or, at a 
minimum, save some of those lives after the accidents occur.
    I was born in Harlan County, Kentucky. Some of my earliest 
memories are of hearing the whistle blow at night over the 
mine. Even small children, as I was, knew then what that 
whistle meant. It was big trouble. And I imagine that routine 
hasn't changed much.
    It is no surprise to any of us that mining is a job fraught 
with dangers, but every miner should trust its government has 
done its job to regulate the industry and ensure compliance 
with the basic safety requirements. If decisions are being made 
within the industry that are causing unsafe conditions at 
mines, it is our responsibility to find out about it.
    As with previous mining accidents, there are now multiple 
investigations unfolding here and in West Virginia. Although 
the relevant committees in Congress and executive agencies are 
doing a lot of work to get to the bottom of this particular 
incident, the Education and Labor Committee believes that its 
broader investigation of safety practices in the industry as a 
whole could be stronger if staff had the ability to take 
depositions.
    As in so many cases, there is finger-pointing, a blame 
game, and reluctance to talk about the internal workings of an 
industry and a government regulator that could use a lot of 
oversight, and this investigation will bring some sunlight into 
that process.
    As I understand it, the resolution will not make any 
dramatic changes to the way the investigation is unfolding. It 
does not extend beyond this session of Congress, and all the 
testimony collected by investigators will be shared with the 
minority. The resolution that is the subject of today's hearing 
also contains an important oversight provision that will 
require the Education and Labor Committee to report on its use 
of deposition authority.
    In a minute we will hear more from the committee. It 
appears the resolution has been specifically drawn to be narrow 
in scope and targeted strictly at gaining the facts about 
mining safety, and I look forward to hearing from our witness.
    I yield to Mr. Dreier for an opening statement.

OPENING STATEMENT OF THE HON. DAVID DREIER, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF CALIFORNIA AND RANKING MEMBER OF THE 
                       COMMITTEE ON RULES

    Mr. Dreier. Thank you very much, Madam Chair. Let me simply 
associate myself with your remarks. Obviously I don't have the 
perspective that you do. I wasn't born in Kentucky. But just to 
listen to your very moving story of listening to that whistle 
and knowing, obviously, there was trouble ahead is something 
that does underscore the very important responsibility that we 
have for our constitutionally mandated directive of oversight 
of these entities which are charged with ensuring the safety of 
our fellow Americans who have chosen to work as miners. And as 
we proceed with this authority, I will simply say that I know 
that Mr. Miller will work very closely with Mr. Kline, the 
ranking member of the committee, to ensure that all the rights 
of the minority are addressed.
    It is not at all unprecedented for us to establish this 
kind of deposition authority, but it is unusual, and there is a 
lot of work that has been done in the Energy and Commerce 
Committee and the Financial Services Committee without 
deposition authority to look at issues like highway 
transportation safety and regulatory abuse that has taken place 
in the delivery of financial services. So while in a perfect 
world it would be nice if you could proceed if there are 
problems that will only be able to be adequately addressed with 
this authority, we obviously are supportive of that so that the 
young Louise Slaughters in Kentucky and other places don't have 
to listen to that whistle blow, meaning that there is trouble 
and, unfortunately, a possible tragedy on the horizon.
    So thank you very much, Madam Chair.
    The Chairwoman. Thank you, Mr. Dreier.
    Any other opening statements? If not, Mr. Miller, we will 
be happy to hear from you.

                       WITNESS TESTIMONY

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF CALIFORNIA AND CHAIRMAN OF THE 
                COMMITTEE ON EDUCATION AND LABOR

    Mr. Miller. Thank you, Madam Chairwoman and Ranking Member 
Dreier, for holding this hearing.
    The resolution before the Rules Committee today reflects 
the seriousness with which Congress takes the issue of mine 
safety as outlined by you, Madam Chairwoman. As you have 
pointed out, last month we watched as these tragic events 
unfolded at the Upper Big Branch Mine in West Virginia. The 
memory of those 29 miners who lost their lives in this disaster 
highlighted the importance of our committee's work and that we 
have the tools to properly investigate issues related to mine 
safety.
    The resolution before you today will be in furtherance of 
our committee's broader oversight duties regarding the health 
and safety of our nation's coal miners. I believe that our 
committee's oversight responsibilities would benefit from the 
authority to hold and compel attendance at depositions. A 
deposition serves as an intermediate step between a full public 
hearing and an informal staff review. It creates a formal 
record and allows us to explore issues in a more sustained 
manner than would be practical at a hearing.
    Last Congress, the House granted our committee deposition 
authority for our investigation of the Crandall Canyon Mine 
disaster in Utah. This successful investigation led to a 
criminal referral to the Department of Justice in large part 
because of the evidence our staff obtained in the depositions. 
I understand that the Department of Justice continues to 
investigate our referral. I believe that that deposition 
authority is equally justified this time around.
    In recognition of the usefulness of this investigative tool 
in the last Congress, the Education and Labor Committee has 
already adopted rules governing depositions. The committee's 
deposition procedure is a result of a bipartisan process that 
began last Congress and reaffirmed with the adoption of our 
committee rules this Congress. It respects and affirms the 
rights of those individuals being deposed, and it respects the 
rights of the minority on our committee.
    The Education and Labor Committee has used the tool 
sparingly and effectively in the past, and should the House of 
Representatives again grant the committee deposition authority, 
I will assure the Rules Committee it will be used sparingly and 
efficiently and effectively as part of our oversight duties.
    I want to thank the Ranking Republican John Kline and his 
staff, who have worked closely with me and my staff on this 
matter, and thank both you, Madam Chair, and Ranking Member 
Dreier for allowing me to present this important resolution. 
And I would urge the committee to bring this matter to the 
floor.
    The Chairwoman. Thank you very much, Mr. Miller.
    [The prepared statement of Mr. Miller follows:]

PREPARED STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE 
 IN CONGRESS FROM THE STATE OF CALIFORNIA AND CHAIRMAN OF THE 
                COMMITTEE ON EDUCATION AND LABOR

    Thank you Chairwoman Slaughter, Ranking Member Dreier, and the 
members of the committee for holding this hearing.
    The resolution before the Rules Committee today reflects the 
seriousness with which Congress takes the issue of mine safety.
    Last month, we watched as the tragic events unfolded at the Upper 
Big Branch Mine in West Virginia.
    The memory of the 29 miners who lost their lives in this disaster 
highlight the importance of our committee's work and that we have the 
tools to properly investigate issues related to mine safety.
    The resolution before you today will be in furtherance of our 
committee's broader oversight duties regarding the health and safety of 
our Nation's coal miners.
    I believe that our committee's oversight responsibilities would 
benefit from the authority to hold and compel attendance at 
depositions.
    A deposition serves as an intermediate step between a full public 
hearing and an informal staff interview.
    It creates a formal record and allows us to explore issues in a 
more sustained manner than would be practical at a hearing.
    Last Congress, the House granted our committee deposition authority 
for our investigation of the Crandall Canyon Mine disaster.
    This successful investigation led to a criminal referral to the 
Department of Justice in large part because of the evidence our staff 
obtained in the depositions.
    I understand that the Department of Justice continues to 
investigate our referral.
    I believe that deposition authority is equally justified this time 
around.
    In recognition of the usefulness of this investigative tool in the 
last Congress, the Education and Labor Committee has already adopted 
rules governing depositions.
    The committee's deposition procedure is the result of a bipartisan 
process that began last Congress and reaffirmed with the adoption of 
our committee rules this Congress.
    It respects and affirms the rights of those individuals being 
deposed.
    It respects the rights of the minority on our committee.
    The Education and Labor Committee has used the tool sparingly and 
effectively in the past.
    Should the House of Representatives again grant the committee 
deposition authority, I can assure the Rules Committee that it will be 
used sparingly and efficiently and effectively as part of our oversight 
duties.
    I thank Ranking Republican Kline and his staff who have worked 
closely with me and my staff on this matter.
    Again, thank you Chairwoman Slaughter and Ranking Member Dreier for 
allowing me to present this important resolution.
    I urge the Rules Committee to advance this resolution to the full 
House of Representatives.

    The Chairwoman. Mr. Dreier.
    Mr. Dreier. Thank you very much, Madam Chair. I would like 
to first ask unanimous consent that Mr. Kline's statement be 
included in the record----
    The Chairwoman. Without objection.
    Mr. Dreier [continuing]. And to say that we have submitted 
minority views.
    [The prepared statement of Mr. Kline follows:]

PREPARED STATEMENT OF THE HON. JOHN KLINE, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MINNESOTA AND RANKING MEMBER OF THE 
                COMMITTEE ON EDUCATION AND LABOR

    Thank you Madam Chair, Ranking Member Dreier, and Members of the 
Committee, for allowing me to submit this statement for the record 
regarding the Education and Labor Committee's request for limited 
deposition authority to investigate compliance with the Mine Act. I 
appreciate the opportunity to share my views on this important matter.
    This year has been a tragic one for the mining community, with 35 
coal miners losing their lives since the beginning of 2010. The dangers 
of underground coal mining were brought into sharp focus last month 
with the devastating loss of 29 miners in an explosion at the Upper Big 
Branch Mine in West Virginia. It was the worst coal mining disaster in 
four decades.
    We do not yet know the cause of the explosion at the Upper Big 
Branch Mine. When I met with MSHA Assistant Secretary Joe Main a few 
weeks ago, he reiterated these investigations can take up to a year. 
With media accounts detailing a parallel FBI investigation, I believe 
strongly we need to allow MSHA and other investigators to do their 
jobs, and I appreciate Chairman Miller's assurances that he does not 
intend to use this deposition authority to impede any ongoing 
investigations.
    However, I am in agreement with Chairman Miller that Congress has a 
duty not only to write the laws, but to exercise oversight to determine 
whether those laws are being obeyed and enforced. As such, I appear 
before you today in support of this resolution. Having tough mine 
safety laws on the books is not enough--those laws must be observed.
    My staff was consulted by the majority in crafting this resolution 
as a tool to assist the committee with its investigation into 
compliance with federal mine safety laws. I have received assurances 
from Chairman Miller that Republicans will be involved in shaping and 
conducting the investigation, and both sides will have access to all 
interviews, documents, and other information and materials resulting 
from our inquiry. I thank the Chairman for those assurances and look 
forward to maintaining this spirit of cooperation as this investigation 
proceeds.
    Deposition authority is an extraordinary tool not regularly used by 
congressional committees other than the Oversight and Government Reform 
panel, and I would note it is being requested in addition to the 
numerous other investigatory powers already available to our committee. 
This request demonstrates our commitment to providing robust oversight 
in the name of worker protection--it also reinforces the importance of 
acting prudently with this tool.
    Again, I thank you for the opportunity to submit testimony on this 
resolution. My staff has briefed the Rules Committee staff about our 
position on the appropriate use of this authority, and I'm confident 
this committee will proceed wisely.

    Mr. Dreier. But one of the things I would like to point 
out, I have raised the concerns that we have and just a 
cautionary note, which I have every confidence that you will 
address. One of the things that we say in our minority views is 
we are encouraged by the inclusion of section 2 in this 
resolution. That section requires the chairman of the Committee 
on Education and Labor to report back to the Committee on Rules 
on use of the authority granted by the resolution. This 
provision will enable us to evaluate the use of staff 
deposition authority in this case and have a benchmark to 
compare for future requests.
    So I do very much appreciate the fact that you will come 
back to us, because, as I said, in looking at the work of the 
Energy and Commerce Committee and the Financial Services 
Committee that have been able to address it without the 
authority, and as you correctly say in dealing with the Utah 
case, you know, you have come to us; so I think it is very 
important for us to look at the authority and make sure that it 
is implemented as effectively as possible.
    Mr. Miller. Thank you. And our discussions with the 
Republicans is that for us this is sort of an evolving----
    Mr. Dreier. Right.
    Mr. Miller [continuing]. That we sort of do lessons learned 
from each time we use this and then see what of our committee 
rules should be changed or if there are concerns by this 
committee about the House rules with respect to this.
    Mr. Dreier. So while you are doing the very big picture 
thing of looking at the oversight of this tragedy, I guess we 
will be looking at the oversight of the work that you all are 
doing from this committee.
    Thank you very much, Madam Chair.
    The Chairwoman. Are there any questions of Mr. Miller?
    Mr. Arcuri.
    Mr. Arcuri. Mr. Chairman, I just have a couple questions 
now. The Oversight Committee does have subpoena power; is that 
correct?
    Mr. Miller. Yes.
    Mr. Arcuri. Your committee does not have standing subpoena 
power?
    Mr. Miller. I believe we do for documents, but in terms 
of--of deposing individuals.
    Mr. Arcuri. And do you believe that your committee is in a 
better position because of the background of your committee and 
the expertise of your committee to investigate this particular 
accident?
    Mr. Miller. I think so. I think, again, we went through 
this for the first time on a bipartisan basis in the 
unfortunate disaster last year, so I think we do. And our 
ongoing, all-the-time involvement with the Mine Safety Act, 
with the Department of Labor and with the industry on how this 
Act is to evolve, there have been two substantial changes to 
the Act. Clearly, there have been additional changes as a 
result of this disaster, but this is probably a more complex 
case than we have witnessed. The others are--well, this was a 
very powerful, powerful explosion that took place, but this 
raises questions about the corporate governance of the safety 
rules as opposed to just sort of the on-site quick decisions 
that people make, and that is why the deposition----
    Mr. Dreier. Will the gentleman yield on that point?
    Mr. Arcuri. Yes.
    Mr. Dreier. I thank my friend for yielding. And I was just 
reminded by our Staff Director Mr. Halpern that your committee 
does have authority for both documents and witnesses at this 
point. Apparently this authority is for staff to engage in 
this.
    Mr. Miller. Yes.
    Mr. Dreier. So the authority does exist today for both 
documents as well as witnesses to come before the committee.
    Mr. Miller. Yes.
    Mr. Dreier. I thank you for yielding.
    Mr. Arcuri. Reclaiming my time, basically this also enables 
your staff to be able to conduct depositions, I take it?
    Mr. Miller. Yes. Well, the joint, both the majority and 
minority.
    The Chairwoman. Majority and minority.
    Mr. Arcuri. And the last question is the subpoena power 
that you are requesting is only specifically for this 
particular investigation.
    Mr. Miller. The deposition authority is just for this 
investigation, correct.
    Mr. Arcuri. Thank you. I have nothing further. I yield 
back.
    The Chairwoman. Mr. Sessions.
    Mr. Sessions. Thank you very much, Madam Chairwoman.
    Mr. Chairman, the rig that was out in the gulf had a number 
of employees that were in danger as a result of the explosion 
and subsequent spill in the gulf, and there were a number of 
employees who had to jump off a very high platform into oil, a 
very, very dangerous circumstance, that deals with, I believe, 
also perhaps labor, employees of this country. Have you 
considered doing some sort of investigation into that?
    Mr. Miller. The personal safety that--the safety operations 
of the rigs are under the Minerals Management Service. There 
have been a number of articles and comments by people about 
whether or not that is the best place, or whether they should 
be combined within the other workplace safety operations of 
OSHA. I have no ability to pass on that at this time. We 
haven't yet taken a look at that. The people of jurisdiction 
haven't yet had a chance to take a look at that.
    This was a very, very tragic accident, as you pointed out, 
where those 11 people, and even the people who escaped, had to 
do--something that you never want to do is fall off an oil rig. 
They had to jump off an oil rig. But all the attention has been 
taken to the oil spill and the cleanup, and at some point we 
have got to get back to was this a safe or not safe workplace?
    The record has been improving on the MMS from what I see, 
but there also is a series of concerns that have been raised, 
but we have not talked to the Minerals Management Service about 
how they do their work. One of the things we have found on the 
shore side of investigations in terms of refineries and others 
is that there is a concern that you have that a lot of small, 
little mistakes, so-called small accidents--this happened to 
British Petroleum in the Texas City explosion--they add up to a 
dangerous workplace, and then the next thing that happens is a 
very serious event that takes place in those workplaces, and 
they don't think they have those procedures for offshore rigs, 
as I understand it. But this is all sort of a preliminary 
impression.
    Mr. Perlmutter. Would the gentleman yield?
    Mr. Sessions. I will yield.
    Mr. Perlmutter. The gentleman's questions brought up some 
concerns that I have, which is okay--and I am going to support 
this particular rule and authority. But we have had the cranes 
that have fallen off the buildings in New York. I mean, how 
far--how often do you want to do this? Because we do have a 
committee that their general thing is to do investigations, do 
depositions, do the subpoenalike work.
    So I appreciate your committee wanting to go forward with 
this, but I also think from a general principle, how often do 
we want to do something like this? Because the platform in the 
gulf, I mean, that is, in my opinion, a bigger disaster----
    Mr. Miller. As I understand it, the Oversight Committee, 
based upon its subcommittee jurisdiction, which is essentially 
the U.S. Government when you whack it up, can go anywhere and 
everywhere they want to go. But this is our oversight 
responsibility with respect to the law under our jurisdiction, 
in this case the Mine Safety Act, or it could be the 
Occupational Safety Act. Whatever those laws are within our 
jurisdiction, we have an obligation both by the House and by 
the Constitution to oversee those laws.
    We do that on a regular basis. We are engaged in a whole 
series. We did the crane investigations where you found an 
immense amount of fraud and criminal behavior taking place in 
some of those jurisdictions. We have done the dramatic loss of 
life in the Las Vegas City Center construction project, where 
you saw really just a shredding of the Nevada safety processes 
that were there when the State was delegated to run that. I 
mean, we do this--we did the refineries. We have done the 
mining accidents. Those are all within in our ongoing 
jurisdiction of oversight, and we have subcommittees that are 
specifically----
    Mr. Perlmutter. Do you think--if the gentleman would 
continue to yield to me.
    Mr. Sessions. I yield.
    Mr. Perlmutter. Do you think that we should have a general 
principle then that would allow your committee to have 
deposition powers, period, as opposed to case by case, just, 
you know, get it over with and you guys go do it?
    Mr. Miller. I think that is the determination. I mean, that 
is why we are sort of going through this process of evolving 
the rules. When we passed our rules this time for this session 
of Congress, we looked at what we did last time, and now I 
think because of that is the comfort we have on both the 
majority and minority side are coming forward and saying, we 
would like to have that same authority that we used last time. 
This was the result. This is how it was handled. And it allows 
you encouragement in this business--a deposition sometimes 
allows you to get additional information. If somebody is under 
subpoena, and then all of a sudden they are standing in front 
of the hearing table, you just may not get that information.
    So these are complex layers of people who have 
responsibilities, responsibilities that are compromised or 
intimidated very often in the workplace even amongst, 
tragically, the government enforcement agencies. So I think we 
are feeling our way in terms of this particular deposition 
power. We can always be rather crude and send out a subpoena 
and, you know, give us all you have got, and turn things upside 
down, but that sometimes doesn't--it's dramatic, but it may not 
take you where you want to go.
    Mr. Perlmutter. Thank you. I yield back.
    Mr. Sessions. I appreciate the gentleman asking and getting 
time. Madam Chair, I yield back my time.
    The Chairwoman. Are there any further questions? If not, 
the chair will be in receipt of a motion.
    Mr. Miller. And you have a statement from the minority, 
right?
    Mr. Dreier. Yes. Thank you.
    Mr. McGovern. Madam Chair.
    The Chairwoman. Mr. McGovern.
    Mr. McGovern. I move the committee favorably report House 
Resolution 1363, granting the authority provided under clause 
4(c)(3) of rule X of the Rules of the House of Representatives 
to the Committee on Education and Labor for purposes of its 
investigation into underground coal mining safety.
    The Chairwoman. Thank you, Mr. McGovern.
    You have heard the gentleman's motion. Are there any 
amendments?
    Mr. Dreier.
    Mr. Dreier. Thank you very much, Madam Chair. I don't have 
an amendment to the rule, but I just wanted to say that we are 
obviously in complete support of this effort. As I said, we 
have minority views that we have submitted for this.
    But we are going to be making an attempt to defeat the 
previous question on this so that we will be able to make in 
order an amendment which was addressed in an on-line vote with 
over a quarter of a million Americans voting in the last week 
that is a proposed spending cut, and I just wanted members to 
know that that will be a big part of the debate on this issue 
when the rule comes forward. And I hope very much the members 
will join us in establishing this opportunity for a spending 
cut on a measure that deals with the welfare reform question.
    The Chairwoman. Thank you, Mr. Dreier.
    Any other comments? If not, the vote occurs on the motion 
by Mr. McGovern. All in favor, say aye.
    Opposed, no.
    In the opinion of the chair, the ayes have it.
    I will carry this on the floor for the majority.
    Mr. Dreier. And I will be managing for the Republicans.
    Let me say apparently I need to formally make a request to 
you that we would be able to submit our minority views.
    The Chairwoman. Without objection.
    Mr. Dreier. Thank you very much, Madam Chair.
    The Chairwoman. The Rules Committee is now adjourned.
    [Whereupon, at 2:24 p.m., the committee was adjourned.]

</pre></body></html>
